No.

IN THE
SUPREME COURT OF THE UNITED STATES

STATE OF LOUISIANA
Respondent
VS.
JON TERRANCE WINZER
Mr. Winzer
PROOF OF SERVICE
I, Jon Terrance Winzer do swear or declare that on this date, 3~~/
as
required by Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The name and addresses of those served are as follows:
District Attorney of Union Parish
Robert W. Levy
100 E. Bayou Street
2nd Floor
Farmerviile, La 71241-2839
JefFLandry
Attorney General for the State of Louisiana
P.O. Box 94005
Baton Rouge, Louisiana 70804-9005
telephone (225) 326-6705

I declare under penalty of perjury that the foregoing is true and correct .
Executed on

s/i

